No. 20-1293

 

 

IN THE
Supreme Court of the United States

ABBVIE INC., ABBOTT LABORATORIES,
UNIMED PHARMACEUTICALS LLC,
AND BESINS HEALTHCARE, INC.,

Petitioners,
Vv.
FEDERAL TRADE COMMISSION,
Respondent.

On Petition for a Writ of Certiorari to the United
States Court of Appeals for the Third Circuit

BRIEF FOR THE PHARMACEUTICAL
RESEARCH AND MANUFACTURERS OF
AMERICA AND BIOTECHNOLOGY
INNOVATION ORGANIZATION
AS AMICI CURIAE IN SUPPORT OF PETITION
FOR A WRIT OF CERTIORARI

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
4,635 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on April 19, 2021.

 

Colin Casey Mogan
Wilson-Epes Printing Co., Inc.
